Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




   THE ESRD BENEFICIARY
    GRIEVANCE PROCESS




                    Daniel R. Levinson
                     Inspector General

                     December 2013
                     OEI-01-11-00550
EXECUTIVE SUMMARY: THE ESRD BENEFICIARY GRIEVANCE PROCESS
OEI-01-11-00550

WHY WE DID THIS STUDY

Over 5,000 dialysis facilities provide life-sustaining treatment to more than
340,000 End-Stage Renal Disease (ESRD) Medicare beneficiaries. Medicare regulations
require that dialysis facilities implement a process for beneficiaries to file grievances
without reprisal or denial of services. Beneficiaries also have the option of filing
grievances with ESRD Network Organizations, which are Medicare contractors that
oversee dialysis facilities. Previous Office of Inspector General work found that the
ESRD beneficiary grievance process was unreliable in identifying and resolving
quality-of-care concerns.

HOW WE DID THIS STUDY

We sent a questionnaire to a random sample of 150 dialysis facilities and had an
80-percent response rate. We sent a questionnaire to 17 of the 18 ESRD networks and
had a 100-percent response rate. (We conducted a site visit to the 18th network, during
which we pretested the questionnaire.) We also made site visits to 13 facilities and
3 networks in 5 States, where we conducted structured interviews with staff and reviewed
documentation, including the facility grievance logs.

WHAT WE FOUND

Dialysis facilities have latitude in what they record as a grievance, and two-thirds of
facilities recorded five or fewer grievances in 2011. The most common grievances
recorded concerned the comfort or appearance of the physical environment and
interactions with staff. Anonymous grievance processes can be difficult to implement,
and fear of reprisal may be difficult for facilities to measure. The Centers for Medicare
& Medicaid Services (CMS) has begun to require that facilities use a standardized
satisfaction survey that does not assess patient fear of reprisal for filing a grievance.
ESRD networks’ involvement with beneficiary grievances are constrained by limited data
and reporting. They analyze grievances for trends, but the database they use is of limited
utility. CMS is unable to readily provide network-specific grievance and complaint data.

WHAT WE RECOMMEND

We recommend that CMS (1) define “grievance” for facilities, (2) require that facilities
report grievances regularly to their respective networks, (3) provide guidance to facilities
on what constitutes a robust process for anonymous grievances, (4) work with the
Agency for Healthcare Research and Quality to add a question to the standardized
satisfaction survey to assess ESRD beneficiaries’ fear of reprisal, and (5) provide
networks with better technical support for their grievance database. CMS concurred with
three of our five recommendations.
TABLE OF CONTENTS

Objective ......................................................................................................1 

Background ..................................................................................................1 

Methodology ................................................................................................5 

Findings........................................................................................................8 

           Two-thirds of facilities recorded five or fewer grievances in

           2011 ..................................................................................................8 

           Anonymous grievance processes can be difficult to implement, 

           and fear of reprisal may be difficult for facilities to measure ........12 

           ESRD networks’ involvement with beneficiary grievances is 

           constrained by limited data and reporting ......................................13 

Conclusion and Recommendations ............................................................15 

Agency Comments and Office of Inspector General Response.................17 

Appendixes ................................................................................................19 

           A: Nonrespondent Analysis ..........................................................19 

           B: Point Estimates and Confidence Intervals Based on the 

           Facility Questionnaire....................................................................20 

           C: Agency Comments ...................................................................21 

Acknowledgments......................................................................................25 

                  OBJECTIVE
                  To describe the grievance processes that dialysis facilities and End Stage
                  Renal Disease (ESRD) Network Organizations have in place for
                  beneficiaries.

                  BACKGROUND
                  ESRD, characterized by a permanent loss of kidney function, entitles
                  individuals to Medicare coverage based solely on the presence of a
                  specific medical diagnosis.1 Most patients with ESRD rely on lengthy,
                  uncomfortable dialysis treatment several times a week to compensate for
                  kidney failure. Medicare pays for treatment for eligible Americans
                  diagnosed with ESRD.2 In 2009, Medicare spent $9.2 billion on dialysis
                  services for 340,000 ESRD beneficiaries.3
                  Effective oversight of dialysis facilities, including robust processes for
                  handling beneficiary grievances, is necessary to protect the vulnerable
                  ESRD beneficiary population. The Centers for Medicare & Medicaid
                  Services (CMS) divides oversight between State Agencies (SAs) and
                  ESRD Network Organizations (networks). SAs, networks, and dialysis
                  facilities all can handle beneficiary grievances; the grievance processes of
                  networks and facilities are the subject of this report.
                  Dialysis
                  Treatment options for ESRD include dialysis or kidney transplantation.
                  The most common treatment is hemodialysis, 4 in which a machine
                  functions as an artificial kidney and pumps blood from the patient and
                  removes toxins and excess fluid as it flows through a filter called a
                  dialyzer. The cleansed blood is returned to the patient’s body through a
                  vein. Peritoneal dialysis is a less common method, which drains toxins
                  and excess fluid through the abdominal cavity using the patient’s natural
                  peritoneal membrane as a filter.
                  More than 5,500 facilities provide dialysis to ESRD Medicare
                  beneficiaries. The majority of facilities are freestanding (90 percent), as
                  opposed to hospital-based units. Most facilities are for-profit (82 percent)


                  1
                    Medicare also covers patients with amyotropic lateral sclerosis. 

                  2
                    Social Security Act (SSA), § 1881(a).

                  3
                    Medicare Payment Advisory Commission (MedPAC), Report to the Congress:

                  Medicare Payment Policy, ch. 6, March 2011.

                  4
                    Government Accountability Office, End-Stage Renal Disease: CMS Should Monitor 

                  Access to and Quality of Dialysis Care Promptly after Implementation of New Bundled

                  Payment System, GAO-10-295, March 2010. 


The ESRD Beneficiary Grievance Process (OEI-01-11-00550)                                                 1
                  and operated by a chain organization (80 percent).5 Almost two-thirds of
                  facilities are operated by just two chain organizations.6
                  Oversight of Dialysis Facilities
                  ESRD Networks. CMS contracts with 18 ESRD Network Organizations
                  (networks) to evaluate and resolve beneficiary grievances, identify
                  facilities not providing appropriate medical care, and measure and
                  improve the quality of care through quality improvement projects.7 Each
                  network covers a specific geographic region.8 On average, networks
                  oversee 322 facilities in their regions. The largest network has
                  590 facilities in its region, and the smallest has 170. Each network’s staff
                  includes clinical personnel and a medical review board with dialysis
                  provider and beneficiary representation.9 CMS withholds 50 cents per
                  patient per dialysis treatment from facilities to fund the networks.
                  Funding for networks in 2010 was about $28 million.10
                  Consumer Assessment of Healthcare Providers and Systems Survey. As of
                  2012, as part of CMS’s quality incentive program (QIP) for dialysis
                  facilities, facilities must use the Consumer Assessment of Healthcare
                  Providers and Systems (CAHPS) survey to measure patient satisfaction.11
                  Monitoring patient satisfaction can identify concerns about the care
                  provided. The Agency for Healthcare Research and Quality (AHRQ),
                  which developed CAHPS, recommends that a third party administer the
                  survey.12 Under the QIP, facilities failing to meet certain quality-of-care
                  performance standards had their Medicare payments reduced between
                  0.5 and 2 percent.13 In December 2011, CMS announced that 30 percent




                  5
                    MedPAC, Report to the Congress: Medicare Payment Policy, ch. 6, March 2011.
                  6
                    Ibid. Fresenius Medical Care North America and DaVita together own 60 percent of all

                  dialysis facilities and 70 percent of freestanding dialysis facilities.

                  7
                    SSA, § 1881(c) and 42 CFR § 405.2112. 

                  8
                    The statute at SSA, § 1881(c) requires the establishment of only 17 networks, but CMS

                  ultimately established 18. See CMS, Medicare ESRD Network Organizations Manual.
                  Pub. 100-14, ch. 1, § 20. 

                  9
                    SSA, § 1881(c)(1), 42 CFR § 405.2113, and CMS, Medicare ESRD Network 

                  Organizations Manual. Pub. 100-14, ch. 2, §§ 40 and 60. 

                  10
                     CMS, ESRD Network Organization Program 2010 Summary Annual Report, p. 6.

                  11
                     76 Fed. Reg. 70228, 70269–70270 (Nov. 10, 2011). 

                  12
                     AHRQ, Fielding the CAHPS In-Center Hemodialysis Survey, May, 2009. 

                  13
                     P.L. 100-275 § 153(c), which added subsection (h) to SSA, § 1881. 42 CFR § 

                  413.177; 76 Fed. Reg. 628 (Jan. 5, 2011). The regulations set forth the QIP incentive 

                  program in general terms; the specifics can be found in the Federal Register entry. CMS 

                  determines the payment reduction on the basis of calculated facility performance scores. 


The ESRD Beneficiary Grievance Process (OEI-01-11-00550)                                                  2
                  of dialysis facilities would have their payments reduced in 2012 based on
                  their QIP scores.14
                  Medicare Conditions for Coverage for Dialysis Facilities. Facilities must
                  meet 16 Conditions for Coverage (CfCs) to participate in the Medicare
                  program.15 The CfCs address topics such as patient rights, safety, and
                  quality assessment and performance improvement.16 Each CfC includes
                  standards that facilities must meet. For example, under the CfC for
                  infection control is a requirement that facilities monitor staff members and
                  ensure that they comply with aseptic techniques. SAs oversee the CfCs
                  through onsite certification surveys of facilities.
                  Beneficiary Grievances
                  Beneficiaries can file grievances with their respective facilities, networks,
                  or SAs. CMS has declined to define what constitutes a grievance at the
                  facility level.17 Facilities may instead define the term for themselves. This
                  contrasts with other parts of Medicare, such as Medicare Advantage (MA),
                  for which CMS defines a grievance as “any complaint or dispute…
                  expressing dissatisfaction with any aspect of an MA organization’s or
                  provider’s operations, activities, or behavior, regardless of whether
                  remedial action is requested.”18
                  Facility Processes for Handling Grievances
                  Facilities must implement an internal grievance procedure for
                  beneficiaries to file oral or written grievances without reprisal or denial of
                  services.19 Beneficiaries may file internal grievances personally,
                  anonymously, or through a representative of the patient’s choosing.20
                  Furthermore, the CfCs state that beneficiaries have the right to privacy and
                  confidentiality in all aspects of treatment.21 Facilities must prominently
                  display a copy of patients’ rights, including the right to file a grievance,
                  where it can be easily seen and read by patients.22



                  14
                     CMS could not calculate performance scores for 625 facilities because they did not
                  meet the minimum threshold for cases. Their payments were not reduced. CMS, CMS
                  Announces First Results for Program to Improve Care for Dialysis Patients, December
                  15, 2011. Accessed at http://www.cms.gov on December 15, 2011.
                  15
                     42 CFR pt. 494.
                  16
                     CMS first issued CfCs for ESRD dialysis facilities in 1976, revising them in 2008. See 

                  73 Fed. Reg. 20370 (April 15, 2008).

                  17
                     73 Fed. Reg. at 20392 (April 15, 2008). 

                  18
                     42 CFR § 422.561.

                  19
                     42 CFR § 494.180(e). 

                  20
                     42 CFR § 494.70(a)(17). 

                  21
                     42 CFR § 494.70(a)(3).

                  22
                     42 CFR § 494.70(c). 


The ESRD Beneficiary Grievance Process (OEI-01-11-00550)                                                   3
                  Facilities must inform beneficiaries of both the facility-level internal
                  grievance process and the network- and SA-level grievance options.23
                  Facilities must also measure, analyze, and track patient satisfaction and
                  grievances as part of the CfC for quality assessment and performance
                  improvement (QAPI).24 Facilities typically track grievances in a written or
                  electronic log.
                  ESRD Network Processes for Handling Grievances
                  Beneficiaries can also file grievances with their respective networks.25
                  Beneficiaries do not need to first file grievances with their facilities before
                  contacting the networks; however, CMS instructs networks to encourage
                  beneficiaries to use the facility-level grievance process before contacting
                  the network. 26 Some beneficiaries may find it difficult to approach facility
                  staff and reach resolution at the facility level.
                  Networks must keep confidential the grievant’s identity unless given
                  specific permission.27 When networks receive grievances, they gather
                  information via telephone, letter, email, and onsite reviews. Networks can
                  make referrals to Quality Improvement Organizations, Managed Care
                  Organizations, or other such entities if the networks identify concerns
                  those entities could more appropriately handle.28 Networks immediately
                  refer allegations to SAs and CMS when they involve a potential life-
                  threatening situation.29
                  If networks determine that an instance or pattern of care exists that has
                  affected or might affect the health or well-being of one or more
                  beneficiaries, networks can require facilities to develop and implement
                  improvement plans. Networks monitor how facilities implement plans and
                  expect facilities to complete the plans within 1 to 3 months. If networks
                  determine that facilities failed to correct the problem, networks may
                  request a revised improvement plan, refer the grievance to SAs, or
                  recommend sanctions to CMS regional offices.30



                  23
                     42 CFR § 494.70(a)(14)–(17). 

                  24
                     42 CFR § 494.110(a)(2)(viii). 

                  25
                     CMS, Medicare ESRD Network Organizations Manual, ch. 7, § 130. Beneficiaries can 

                  also file a complaint with the network. The network complaint process is less formal 

                  than the network grievance process. The beneficiary decides whether to use the network 

                  complaint or grievance process. In this report, we use the term “grievance” to refer to

                  both grievances and complaints at the network level.

                  26
                     CMS, Medicare ESRD Network Organizations Manual, ch. 7, § 130.2. 

                  27
                     Ibid., ch. 7, § 130.4.

                  28
                     Ibid., ch. 7, § 130.6.

                  29
                     Ibid., ch. 7, § 130.9.

                  30
                     Ibid., ch. 7, § 150. 


The ESRD Beneficiary Grievance Process (OEI-01-11-00550)                                                4
                  Networks must track and process all grievances in an electronic database.31
                  Networks have recently switched to a new database as part of a larger data
                  system migration to the Consolidated Renal Operations in a Web-enabled
                  Network (CROWNWeb). Facilities use CROWNWeb to submit clinical
                  quality measures to the networks. The database that networks use to track
                  grievances is called the Network Contact Utility. This database also
                  includes information on other types of requests made to networks, such as
                  facilities asking for help with noncompliant patients or beneficiaries
                  asking for information about their dialysis care.
                  Previous Work
                  In 2000, the Office of Inspector General (OIG) found major shortcomings
                  in the oversight of dialysis facilities.32 Oversight focused on overall
                  quality improvement rather than enforcing minimum requirements that
                  protect beneficiaries from harm, and it lacked coordination and
                  accountability on the part of the networks, SAs, and facilities. The report
                  also found that the ESRD beneficiary grievance process was unreliable in
                  identifying and resolving quality-of-care concerns. OIG recommended
                  that CMS hold facilities more fully accountable for the quality of care they
                  provide and hold the networks and SAs more fully accountable for their
                  performance in overseeing the quality of care provided by facilities. CMS
                  generally agreed with OIG’s recommendations and specifically stated that
                  it would strengthen procedures for anonymous grievances to avoid the
                  possibility of retaliation against patients.

                  METHODOLOGY
                  Scope
                  This inspection is national in scope. It examined network and facility
                  grievance data for 2011.
                  Data Sources and Collection
                  Questionnaire for networks. We surveyed 17 of the 18 networks using an
                  online questionnaire. (We pretested the questionnaire during a site visit to
                  the 18th network.) The questionnaire asked about challenges that networks
                  face in investigating grievances, how they use grievance data to identify
                  quality improvement opportunities, and how they share facility-specific
                  data with SAs and CMS. We conducted the survey from
                  June–September 2012, and had a 100-percent response rate.


                  31
                    Ibid., ch. 7, § 130.

                  32
                    OIG, External Quality Review of Dialysis Facilities: A Call for Greater 

                  Accountability, OEI-01-99-00050, June 2000. 


The ESRD Beneficiary Grievance Process (OEI-01-11-00550)                                        5
                  Questionnaire for dialysis facilities. We surveyed a simple random sample
                  of 150 facilities (of the 5,571 facilities operating in 2011) using an online
                  questionnaire. The questionnaire covered facility grievance procedures,
                  the number of grievances that facilities received, how facilities use
                  grievances as part of their overall QAPI efforts, and whether facilities
                  would record hypothetical concerns as formal grievances. As part of the
                  questionnaire, we asked facilities to provide us with copies of the survey
                  instrument they used in 2011 to measure patient satisfaction. We
                  conducted the survey from July–October 2012. Two facilities we
                  attempted to contact had closed. We received responses from
                  120 facilities, an 80-percent response rate. Because of this response rate,
                  our results apply to an estimated 4,457 of the 5,571 facilities in our
                  sampling frame. See Appendix A for an analysis of nonrespondents and
                  Appendix B for confidence intervals and point estimates for key data
                  points from the facility questionnaire.
                  Site visits to dialysis facilities and networks. We conducted site visits at a
                  purposive sample of 3 networks in 3 States and 13 facilities in 5 States.
                  We selected the networks on the basis of geographic diversity and size of
                  patient population, and we selected the facilities on the basis of their
                  proximity to the networks, as well as ownership status and QIP results. At
                  the networks and facilities, we conducted structured interviews with staff
                  members and reviewed policies and procedures, including those for how
                  staff members investigate beneficiary grievances. We conducted the site
                  visits from June–August 2012.
                  Dialysis facility grievance logs. While onsite, we obtained the
                  2011 grievance logs from the 13 facilities we visited. The logs contained a
                  total of 103 grievances.
                  Analysis
                  Questionnaires and site visits. We performed qualitative data analysis on
                  responses from the interviews and questionnaires. For example, we
                  reviewed the responses for common themes. We also analyzed network
                  and facility questionnaire responses by performing frequency counts of
                  responses.
                  Dialysis facility grievance logs. We abstracted and categorized the nature
                  of each grievance and the facility’s response to it, and performed
                  frequency counts of those categories.
                  Limitations
                  We did not independently verify the data that facilities and networks
                  reported to us in their questionnaires. We also could not confirm whether
                  facilities recorded all 2011 grievances in their logs; we could analyze only

The ESRD Beneficiary Grievance Process (OEI-01-11-00550)                                       6
                  the grievances that were in the logs. The conclusions we drew from our
                  site visits are limited to the facilities and networks we visited.
                  Standards
                  This study was conducted in accordance with the Quality Standards for
                  Inspection and Evaluation issued by the Council of the Inspectors General
                  on Integrity and Efficiency.




The ESRD Beneficiary Grievance Process (OEI-01-11-00550)                                   7
                  FINDINGS
                  Two-thirds of facilities recorded five or fewer
                  grievances in 2011
                  Facilities recorded 25,032 beneficiary grievances in 2011. However,
                  28 percent of facilities recorded no grievances, and 38 percent recorded
                  between one and five grievances. Because CMS does not define what a
                  grievance is, facilities have latitude in defining what they record as a
                  grievance; this may explain the variation across facilities in the number of
                  reported grievances. The low number recorded in any one facility makes
                  it difficult for a facility to analyze grievances for patterns.
                  CMS requires facilities to prominently display a copy of patients’ rights,
                  including the right to file a grievance, where it can be easily seen and read
                  by patients.33 On our site visits, we generally observed these postings in
                  facilities’ waiting areas. Furthermore, we obtained documentation from
                  the facilities we visited detailing the information given to patients
                  regarding facility grievance procedures. Facilities typically gave this
                  information to patients when they began treatment.

                  The most common grievances that facilities recorded
                  concerned the comfort or appearance of the physical
                  environment and interactions with staff
                  About one in four grievances that facilities reported in response to our
                  questionnaire concerned the comfort or appearance of the physical
                  environment (see Table 1). Because dialysis patients spend so much time
                  at facilities receiving treatment (typically three treatments per week lasting
                  3 to 4 hours each), the environment and comfort are of obvious
                  importance to them. Examples of such grievances included the facility’s
                  temperature (most often, too cold), working order of televisions, and
                  condition of dialysis treatment chairs.
                  Facility staff also can be the subject of grievances (17 percent of recorded
                  grievances). Patients frequently interact with technicians, nurses,
                  physicians, and social workers during treatment. These grievances might
                  involve a patient reporting that he or she had been treated rudely or
                  unfairly by staff. For example, in one facility a patient complained that
                  the receptionist was rude, and the patient left without receiving treatment.
                  The facility resolved the grievance by counseling that staff member on
                  how to be more sensitive to patients’ needs.


                  33
                       42 CFR § 494.70(c).

The ESRD Beneficiary Grievance Process (OEI-01-11-00550)                                         8
                  Another type of recorded grievances concerned quality of care. Examples
                  of these grievances included instances of patients losing either too much
                  or too little fluid during treatment.34 In response to these grievances,
                  facility staff and the patient’s physician would monitor the patient during
                  treatment, and make adjustments as necessary.
                  Table 1: Nature of Grievances Recorded by Facilities in 2011
                                                                Percentage of
                  Nature of Grievance
                                                          Recorded Grievances
                  Physical Environment                                       26%
                  Staff Interactions                                         17%
                  Scheduling                                                 11%
                  Quality of Care                                            10%
                  Staff Competence                                            5%
                  Patient-to-Patient Conflicts                                3%
                  Other                                                      22%
                  Facility Could Not Categorize                               6%
                  Total                                                     100%
                  Source: OIG analysis of data from facility questionnaires, 2012.




                  Facilities have latitude in what they decide to record as a
                  grievance
                  Although there is no expectation for any volume of grievances, the limited
                  number that are recorded may result from the latitude that facilities have in
                  determining what they record in their grievance logs. Because facility
                  staff determine for themselves what to record as a grievance, it is possible
                  that some concerns could be omitted from grievance records.
                  We asked facilities to provide their definitions of a grievance, and those
                  definitions ranged from the very broad “any problem a patient has” to the
                  more narrowly defined “a request for an investigation of a complaint about
                  a possible risk to the health, safety, or well-being of a patient”; or “a
                  situation where the patient is unnecessarily at high risk.” Many facilities
                  did not offer a definition beyond that of having a process to resolve
                  grievances; some merely defined grievance as a “patient complaint,” and
                  others defined it as a problem that cannot be resolved quickly.
                  Our questionnaire provided facilities with potential concerns and asked
                  whether the facilities would record them as grievances if they were to
                  receive those concerns from beneficiaries. Most facilities recorded many
                  of the concerns—particularly quality-of-care-related concerns—as formal

                  34
                       Dialysis removes harmful waste, extra salt, and water from blood.

The ESRD Beneficiary Grievance Process (OEI-01-11-00550)                                      9
                  grievances. However, 20 percent of facilities reported that they would not
                  record at least one of the following quality-of-care-related concerns: a
                  technician is not properly cleaning dialysis machines between shifts; a
                  nurse is being rough when connecting the patient to the dialyzer; a nurse is
                  not changing gloves before connecting the patient to the dialysis machine.
                  This last concern could be a violation of the CfC on infection control, but
                  because the facility would choose not to record it as a beneficiary
                  grievance, State surveyors may not be aware of the potential violation
                  unless a patient contacted them or the network directly. See Table 2 for
                  concerns that facilities would and would not record as grievances.
                  At the 13 facilities we visited, staff told us that they generally record
                  grievances only when they cannot resolve the concern immediately. In
                  four of those facilities, staff told us that beneficiaries can request that their
                  grievances be recorded regardless of subject or severity, which can lead to
                  the elevation of seemingly minor problems.

                  Table 2 – Concerns That Facilities Would and Would Not Record As
                  Grievances

                                                                                       Percentage of
                                                                     Percentage of
                                                                                       Facilities That
                                                             Facilities That Would
                     Concern                                                           Would Record
                                                             Not Record Concern
                                                                                        Concern as a
                                                                    as a Grievance
                                                                                          Grievance

                     Technician is not properly cleaning
                                                                               13%               87%
                     dialysis machines between shifts
                     Nurse is rough when connecting the
                                                                               12%               88%
                     patient to the dialyzer
                     Nurse does not change gloves
                     before connecting the patient to the                      12%               88%
                     dialysis machine
                     Staff make the patient feel
                                                                               15%               85%
                     unwelcome
                     Facility is too cold                                      24%               76%

                     Patient demands to move to another
                     dialysis chair because the patient
                                                                               23%               77%
                     next to him/her makes him/her feel
                     uncomfortable
                     Patient submits written request to fix
                                                                                 28%             72%
                     the television
                    Source: OIG analysis of data from facility questionnaires, 2012.



                  However, in some cases, grievances are not recorded at all. For example,
                  at one facility we visited, a beneficiary complained over several months
                  both about quality-of-care-related issues and his comfort during treatment.
                  The facility did not record these as grievances. These unrecorded



The ESRD Beneficiary Grievance Process (OEI-01-11-00550)                                                 10
                  grievances could present a missed opportunity to analyze trends and
                  identify opportunities to improve quality.
                  Facilities generally resolve grievances directly with the staff
                  involved, rather than through systemic improvements
                  Facilities have a number of tools available to resolve grievances. In their
                  survey responses, facilities told us that these tools include staff training,
                  implementing quality improvement plans, disciplining employees, and
                  contacting their respective networks.
                  However, when we examined grievance logs in the facilities we visited,
                  we observed that most grievances are resolved by talking to the
                  beneficiaries and specific staff directly involved in the incident. On only a
                  few occasions—when grievances addressed broad quality-of-care issues—
                  did facilities hold training sessions for all staff. For example, one such
                  grievance concerned a patient who experienced painful cannulation
                  (insertion of a needle into the venous access point). As a result, the
                  facility trained its nursing staff on communicating with patients during
                  difficult interactions (the log did not note whether the facility also trained
                  staff on cannulating). Another grievance concerned one patient who felt
                  that some staff members were not proficient in using his dialysis machine.
                  The facility held an in-service training on proper use of the machine.
                  Facility staff typically tried to resolve common grievances about the
                  physical environment, such as temperature or broken equipment,
                  immediately, for example by adjusting the thermostat or calling in the
                  appropriate repair people.
                  Furthermore, facilities’ analysis of grievances rarely results in systemic
                  improvements. About half the facilities that we visited hold monthly
                  meetings focused on facilitywide quality and performance improvement.
                  During these meetings, facility staff might discuss trends gleaned from
                  grievances; however, staff told us that their grievance volume is so low
                  that they almost never have any grievances to discuss. For grievances that
                  staff do not record, such as issues with televisions or temperature, staff do
                  not conduct any formal trend analysis. Instead, the facility’s point person
                  for resolving grievances tries to informally track and identify patterns.
                  All but 3 percent of facilities reported that they analyze grievances to
                  identify trends, but they are unable to see an actual trend because of the
                  low number of cases. Of the facilities that do analyze for trends, almost
                  all look for trends related to the physical environment, specific employees,
                  quality of care, facility procedures, and activities of specific patients, but
                  they were able to identify trends in fewer than a third of these areas, as
                  Table 3 shows.


The ESRD Beneficiary Grievance Process (OEI-01-11-00550)                                          11
                  Table 3: Grievances That Facilities Analyzed for Trends

                                                               Percentage of            Percentage of
               Nature of Grievance                             Facilities That          Facilities That
                                                           Analyze for Trends        Identified Trends
               Physical environment or appearance                          98%                    30%
               Specific employee                                           97%                    26%
               Quality of care                                             97%                    19%
               Facility procedures                                         96%                    20%
               Specific patient                                            94%                    27%

                  Source: OIG analysis of data from facility questionnaires, 2012.



                  Anonymous grievance processes can be difficult to
                  implement, and fear of reprisal may be difficult for
                  facilities to measure
                  Almost all facilities reported that they offer methods for beneficiaries to
                  submit grievances anonymously. Anonymous processes at facilities we
                  visited included submission by telephone, to corporate headquarters or to a
                  third party, and to suggestion boxes. However, 5 of the 13 facilities we
                  visited did not offer anonymity. At these facilities, staff told us that,
                  although they keep confidential the identity of patients who submit
                  grievances, the patients must give their names.
                  Anonymous grievances can be difficult for facilities to address. For
                  example, if a grievance concerns a particular staff interaction, it may be
                  difficult to obtain details about the incident when staff do not know which
                  patient was involved. One staff person told us that “an adequate
                  resolution is usually dependent on identifying the complainant.” Ensuring
                  anonymity is also difficult because, as facility staff told us, even when
                  patients submit grievances anonymously, staff can often deduce the
                  patients’ identities because of the nature of the grievances.
                  On the other hand, it is important that patients who file grievances feel
                  safe from reprisals, as OIG and patient advocates have documented.35
                  Staff at one network told us that they sometimes must stop a grievance
                  investigation when the patient’s anonymity becomes threatened, and 13 of
                  the 18 networks said in response to our questionnaire that when they are
                  resolving grievances, it is a challenge to assure patients that they will not
                  face reprisals for complaining.



                  35
                     OIG, External Quality Review of Dialysis Facilities: A Call for Greater
                  Accountability, OEI-01-99-00050, June 2000.

The ESRD Beneficiary Grievance Process (OEI-01-11-00550)                                                  12
                  Two-thirds of the patient satisfaction surveys that facilities submitted to us
                  include a question to measure fear of reprisals; such questions show
                  facilities’ awareness that fear of reprisal may exist. Facilities can use
                  these data to assess how well they create an environment in which patients
                  feel comfortable raising questions or grievances about their care.
                  These patient satisfaction surveys were developed by the facilities.
                  However, as part of its QIP, CMS mandated that facilities administer the
                  CAHPS survey to measure patient satisfaction. CAHPS includes
                  questions that address patient satisfaction with common concerns, such as
                  facility cleanliness, insertion of needles with as little pain as possible, and
                  the timeliness of starting treatment. However, CAHPS does not include a
                  question to measure a patient’s fear of reprisal for lodging a grievance.
                  Because of the time and expense involved, it is unlikely that facilities will
                  administer both the CAHPS survey and a survey of their own. As a result,
                  facilities may discontinue conducting their own surveys, and the chance to
                  learn about fear of reprisal among patients will be limited.
                  ESRD networks’ involvement with beneficiary
                  grievances is constrained by limited data and
                  reporting
                  Although the networks serve as an external option for resolving
                  beneficiary grievances with dialysis care, that role is constrained by
                  limited data and reporting on grievances. In addition to investigating
                  grievances, networks also collect data and provide technical assistance to
                  providers and beneficiaries.36 We found that communication between
                  networks and facilities primarily concerned these latter areas, not
                  grievances. Networks communicated with facilities primarily through
                  email reminders promoting network initiatives, such as flu vaccination,
                  and through other educational materials. Most networks reported that they
                  visited at least one facility in 2011, most often to provide training rather
                  than to assist in resolving a grievance. Similarly, facilities reported that
                  networks rarely visit them, and when networks do go onsite at a facility it
                  is for reasons such as providing training, not to resolve grievances.
                  All networks analyze grievances for trends, but the database
                  they use is of limited utility
                  Networks analyze grievances for trends at individual facilities and within
                  chain organizations, as well as to identify opportunities to improve quality
                  networkwide. All 18 networks run reports from the CMS-developed
                  Network Contact Utility database to analyze grievances for trends. All but

                  36
                     SSA, § 1881(c)(2) and 42 CFR § 405.2112. The Network areas are determined by
                  number and concentration of beneficiaries.

The ESRD Beneficiary Grievance Process (OEI-01-11-00550)                                            13
                  two networks reported that they had developed their own programs (e.g.,
                  using Excel or SAS) to conduct additional analysis. Most networks
                  worked to identify systemic concerns at individual facilities and
                  opportunities for networkwide projects to improve quality.
                  The networks we visited raised concerns about the usefulness of the
                  Contact Utility database for analyzing grievance data. One network
                  reported that its understanding and use of the Contact Utility database is
                  limited because the database lacks a data dictionary or user manual.
                  Another network that we visited duplicated all the data from the database
                  into its own system to more accurately and specifically categorize
                  grievances. In doing so, this network identified a lack of historical data as
                  a problem; because the database retains only 18 months of data, its value
                  is limited. Furthermore, the broad categories in the database make it
                  difficult to compare grievance trends across networks, as networks can
                  interpret category labels differently.
                  Facilities rarely contact networks for assistance with
                  grievances
                  Facilities rarely contact the network for assistance in dealing with
                  grievances. Only 1 of the 13 facilities we visited had contacted its
                  network for such help. Sixty-one percent of dialysis facilities responding
                  to our survey said that they do not report to their respective networks the
                  number and types of grievances they receive. Of the facilities that did,
                  most did so only upon the network’s request or on an as-needed basis,
                  rather than on a regular basis. Only eight networks reported in our survey
                  that they conducted an onsite investigation of a facility.
                  Facilities that we visited generally contacted their respective networks for
                  assistance with difficult patients rather than for help with the grievance
                  process. Recently, facilities have been contacting networks for assistance
                  with the transition to CMS’s CROWNWeb data system. Many of the
                  facilities we visited voiced frustration with the transition and have often
                  contacted their networks for help in using the new system.
                  CMS is unable to readily provide network-specific grievance
                  data
                  We asked CMS to provide us with information on network-specific data
                  on grievances for 2011, including the nature of grievances and their
                  disposition. After 8 months, CMS was able to provide only high-level
                  summary data, apparently because of the networks’ inability to extract the
                  data from the Contact Utility database. This raises questions about CMS’s
                  ability to effectively oversee the networks’ role in investigating
                  grievances.


The ESRD Beneficiary Grievance Process (OEI-01-11-00550)                                         14
                  CONCLUSION AND RECOMMENDATIONS
                  Medicare regulations require dialysis facilities to measure, analyze, and
                  track beneficiary grievances. When promulgating its ESRD regulations,
                  CMS declined to define “grievance” on the grounds that the term was
                  “commonly understood.”37 However, we found that facilities define
                  grievances differently and as a result, they vary in how they measure and
                  track them. Some facilities are likely not recording important, quality-of-
                  care-related grievances, such as a nurse not changing gloves before
                  connecting a patient to the dialysis machine, and other facilities are
                  recording trivial grievances, such as televisions with poor reception.
                  This variation, coupled with facilities’ not routinely reporting their
                  grievance data to networks, means that networks do not get an accurate,
                  complete picture of the grievances occurring in their respective regions.
                  Furthermore, limitations with networks’ own data make it difficult for
                  them to conduct their own analyses of grievance data.
                  Therefore, we recommend that CMS:
                  Define “grievance” for facilities
                  CMS could offer a strict definition of a grievance. Alternatively, it could
                  define a grievance in terms of what facilities would be required to record
                  in their logs. For example, CMS could require facilities to record only
                  those grievances related to quality of care or staff interactions, rather than
                  grievances related to temperature or broken television sets. CMS could
                  work with the networks to create a definition.
                  Provide guidance to facilities on what constitutes a robust
                  process for anonymous grievances
                  CMS, either directly or via the networks, could provide facilities with
                  guidance that explains the difference between a confidential process and
                  an anonymous process. Networks could also offer facilities guidance on
                  effective strategies for investigating a grievance when the beneficiary
                  chooses to remain anonymous.
                  Require facilities to report grievances regularly to their
                  respective networks
                  CMS already requires facilities to regularly report certain clinical data to
                  their respective networks. As part of this reporting, CMS could require
                  facilities to periodically provide a summary of grievances. For example,
                  facilities could send quarterly reports to their networks with the number
                  and nature of any grievances the facilities recorded. CMS, together with


                  37
                       73 Fed. Reg. at 20392 (April 15, 2008).

The ESRD Beneficiary Grievance Process (OEI-01-11-00550)                                           15
                  the networks, could define which types of grievances facilities could
                  report, omitting grievances concerning broken television sets and focusing
                  on more serious concerns related to quality of care and staff interactions.
                  Such regular reporting would give networks more data with which to
                  analyze trends, and thus give them a better sense of the types of grievances
                  that beneficiaries in their regions are raising with facilities.
                  Work with AHRQ to add a question to CAHPS to assess
                  beneficiaries’ fear of reprisal
                  Once facilities transition to the CAHPS survey, it is unlikely that they will
                  also conduct their own surveys. As a result, far fewer facilities will
                  capture data from beneficiaries regarding fear of reprisal. CMS could
                  work with AHRQ on adding a small number of questions designed to elicit
                  this information. CMS would then be able to better measure the extent to
                  which ESRD beneficiaries throughout the country fear reprisal for voicing
                  grievances about their care.
                  Provide networks with better technical support for the Contact
                  Utility database
                  CMS could provide networks with a data dictionary and user manual
                  detailing the elements of the database. It could also standardize for
                  networks the definitions for types of grievances; such standardization is
                  essential for cross-network analysis. Furthermore, CMS could add
                  additional standard reports and more historical data to the database so that
                  networks would not need to create their own duplicative tools for data
                  analysis.
                  We understand that the entire network data system is in a state of
                  transition as CMS implements the new CROWNWeb system. Better
                  support to networks will ease this transition and allow networks to best use
                  grievance data to identify concerns in their regions.




The ESRD Beneficiary Grievance Process (OEI-01-11-00550)                                      16
                  AGENCY RESPONSE AND OFFICE OF INSPECTOR GENERAL
                  RESPONSE
                  CMS concurred with our first, second, and fifth recommendations.
                  Regarding the first recommendation, CMS no longer distinguishes
                  between grievances and complaints at the network level, and will consider
                  proposing to define “grievance” in the ESRD CfCs during the next
                  rulemaking cycle.
                  In concurring with our second recommendation, CMS references its
                  addition of a requirement in 2008, in response to an earlier OIG report
                  (2000), that facilities inform beneficiaries of the right to file grievances
                  personally, anonymously, or through a representative of the beneficiary's
                  choosing. CMS noted that the networks are responsible for ensuring that
                  facilities are aware of this requirement, and for informing beneficiaries of
                  their right to decide whether to begin the grievance process at the facility
                  or network level. CMS stated that it is working with beneficiaries,
                  families, and other stakeholders to get direct input on making the
                  grievance system more robust. However, our report shows that some
                  facilities either do not have an anonymous process in place, or that they do
                  not understand what an anonymous process is. CMS notes that networks
                  must inform beneficiaries of their right to file a grievance either at their
                  facility or their network, although CMS’s guidance to networks
                  encourages beneficiaries to use the facility-level grievance process before
                  contacting the network. This policy reinforces how important it is that
                  facilities have a robust process for anonymous grievances.
                  Regarding our fifth recommendation, CMS held training sessions with the
                  networks to assist them in learning the Contact Utility database, and
                  included a copy of the technical manual.
                  CMS did not concur with our third and fourth recommendations.
                  Regarding the third recommendation, the agency agreed that although
                  such data may be useful, safeguards exist to ensure that grievances are
                  resolved. For example, the CfCs require that facilities have grievance
                  policies and procedures in place, as well as include beneficiary satisfaction
                  and grievances as part of their QAPI activities; that networks inform
                  beneficiaries of the network's role in receiving, reporting, resolving, and
                  tracking patient grievances; and that State surveyors assess the QAPI
                  program and grievance component during their onsite inspections of
                  facilities.




The ESRD Beneficiary Grievance Process (OEI-01-11-00550)                                      17
                  Additionally, CMS stated that the recommendation did not take into
                  account its costs and that further assessment of need and a benefit analysis
                  would have to be performed. However, our recommendation is meant to
                  enhance the networks’ statutory responsibility to monitor facilities by
                  providing another indicator the networks can use to identify poor
                  performers. With respect to the benefit analysis, we invite CMS to
                  conduct such an analysis, including its assumptions of the costs and
                  benefits of requiring reporting of such data.
                  Regarding our fourth recommendation, CMS stated that it needs to
                  consider additional costs for revising the survey, as well as the change in
                  burden for the beneficiaries because of the increased number of survey
                  questions. CMS is also concerned whether an ESRD beneficiary would
                  honestly answer a question about fear of reprisal. The ESRD Network
                  Coordinating Center is exploring ways to obtain information on patient
                  satisfaction with grievance resolution, and CMS plans to conduct a small
                  number of interviews with beneficiaries and will look into this issue.
                  OIG questions CMS’s assumption that beneficiaries would not honestly
                  answer a question about fear of reprisal on an anonymous survey
                  administered by a third party. That assumption calls into question whether
                  beneficiaries would answer any of the questions honestly. Furthermore, if
                  beneficiaries are in fact too fearful to honestly answer such a question
                  from a third party, it underscores the importance of measuring and
                  addressing that fear.
                  For the full text of CMS’s comments, see Appendix C.




The ESRD Beneficiary Grievance Process (OEI-01-11-00550)                                        18
                  APPENDIX A
                  Nonrespondent Analysis
                  Our findings are based on estimates made solely from data collected from
                  sample respondents, and we did not statistically adjust our results because
                  of any assumptions about how the nonrespondents may have answered our
                  questions. Consequently, our results pertain to approximately 80 percent
                  of the population of all dialysis facilities. We performed a nonresponse
                  analysis to see if these results for 80 percent of the population might
                  substantially differ from those of the entire population. We compared
                  whether the respondents and nonrespondents differ in certain
                  characteristics and examined whether the time of response affected the
                  results.
                  Comparisons of Respondents and Nonrespondents
                  The characteristics we had available for both respondents and
                  nonrespondents were facility type (chain or nonchain) and nonprofit status
                  (for-profit or nonprofit). We estimated the proportion of respondents and
                  nonrespondents with these characteristics and performed Wald Chi-Square
                  tests of significance. We found no statistically significant differences at
                  the 95-percent confidence level between the respondents and
                  nonrespondents for either of these facility characteristics.
                  Analysis of Late Respondents
                  Survey researchers have found some evidence that—in general—late
                  respondents may provide answers more similar to those that
                  nonrespondents would have provided than to those provided by early
                  respondents. We categorized the respondents as either “early” or “late” by
                  whether they responded to the questionnaire within three written attempts
                  (“early”) or only after we contacted them by telephone (“late”). We then
                  compared estimates of early and late respondents on key survey questions,
                  i.e., questions as to whether facilities recorded grievances, analyzed
                  grievances for trends, or had a method for patients to complain
                  anonymously. We found no statistically significant differences at the
                  95-percent confidence level between estimates by early and late
                  respondents.
                  Although we found no statistically significant differences on the basis of
                  this analysis, we cannot conclude that no differences exist. The magnitude
                  of any potential differences is a product of both the nonresponse rate and
                  the extent to which nonrespondents actually would have answered the
                  questions differently from respondents. However, our results based only
                  on responding facilities may reasonably be expected not to differ
                  substantially from those based on all facilities in the sample.

The ESRD Beneficiary Grievance Process (OEI-01-11-00550)                                    19
                    APPENDIX B
                    Point Estimates and Confidence Intervals Based on the Facility
                    Questionnaire
                    We calculated confidence intervals for key data points in the facility
                    questionnaire. The sample size, point estimates, and 95-percent confidence
                    intervals are given for each of the following:


 Data Element Description                                        Sample Size   Point Estimate   95-Percent Confidence Interval

 Number of Grievances Recorded                                          120           25,032                      18,370–31,695

 Percentage of Facilities That Recorded No Grievances                   120             28%                           20%–36%

 Percentage of Facilities That Recorded 1–5 Grievances                  120             38%                           30%–47%

 Grievances Related to Physical Environment                             120             26%                           15%–37%

 Grievances Related to Staff Interactions                               120             17%                           11%–23%

 Grievances Related to Scheduling                                       120             11%                            8%–13%

 Grievances Related to Quality of Care                                  120             10%                            6%–14%

 Grievances Related to Staff Competence                                 120               5%                            3%–7%

 Grievances Related to Patient-to-Patient Conflicts                     120               3%                            1%–5%
 Facility Would Record as a Grievance That Technician Is Not
                                                                        120             87%                           79%–92%
 Cleaning Machine
 Facility Would Record as a Grievance That Nurse Is Rough
                                                                        120             88%                           81%–93%
 When Connecting Patient to Machine
 Facility Would Record as a Grievance That Nurse Did Not
                                                                        120             88%                           81%–93%
 Change Gloves
 Facility Would Record as a Grievance That Staff Makes
                                                                        120             85%                           77%–90%
 Patient Feel Unwelcome
 Facility Would Record as a Grievance That Temperature Is
                                                                        120             76%                           67%–83%
 Too Cold
 Facility Would Record as a Grievance Patient Request To
                                                                        120             77%                           68%–83%
 Move Chairs
 Facility Would Record as a Grievance Patient Written Request
                                                                        120             72%                           64%–80%
 To Fix TV
 Facilities That Analyze Grievances for Trends                          120             97%                           93%–99%

 Facilities That Analyze for Trends About Physical Environment          117             98%                          93%–100%

 Facilities That Analyze for Trends About Specific Employees            117             97%                           91%–99%

 Facilities That Analyze for Trends About Quality of Care               117             97%                           91%–99%

 Facilities That Analyze for Trends About Procedures                    117             96%                           90%–98%

 Facilities That Analyze for Trends About Specific Patients             117             94%                           88%–97%

 Facility Identified Trends About Physical Environment                  117             30%                           22%–38%

 Facility Identified Trends About Specific Employees                    117             26%                           18%–34%

 Facility Identified Trends About Quality of Care                       117             19%                           13%–27%

 Facility Identified Trends About Procedures                            117             20%                           13%–28%

 Facility Identified Trends About Specific Patients                     117             27%                           19%–35%
Source: OIG analysis of facility questionnaire data, 2012.




The ESRD Beneficiary Grievance Process (OEI-01-11-00550)                                                     20
                         APPENDIXC
                         Agency Comments




     *'fP."lC~.~


 (         ~        DEPARTMENT OF HEALTH & HUMAN SERVICES                                   Centers for Medicare & Medicaid Services
     ,~,.
                                                                                            Administrator
                                                                                            Washington, DC 20201




                   DATE:          OCT 30 2013

                   TO:           Daniel R. Levinson
                                 Inspe~tor General

                   FROM:         Mar~nTavenner
                                                      /S/
                                 Adminl'stratO.

                   SUBJECT:      Office of Inspector General (OIG) Draft Report: The ESRD Beneficiary
                                 Grievance Process (OEI-0 I -I I -00550)


                   Thank you for the opportunity to review and comment on the above subject OIG draft report.
                   The Centers for Medicare & Medicaid Services (CMS) appreciates the recommendations for
                   improving the End Stage Renal Disease (ESRD) Beneficiary grievance process and views this
                   report as a means to reassess progress, and to highlight recent changes we have implemented to
                   improve the ESRD Network grievance process and to improve dialysis care. OIG's objective for
                   this study was to describe the grievance processes that dialysis facilities and ESRD Network
                   Organizations have in place for beneficiaries.

                   The investigation and resolution of grievances is an opportunity to focus on meeting the needs of
                   ESRD patients and to create change by listening to, and learning from, the patient's perspective.
                   In January 2013, CMS implemented a redesigned ESRD Network Statement of Work (SOW) to
                   improve alignment with the Department of Health and Human Services National Quality
                   Strategy and the three aims of better health, better care, and lower costs. The new approach
                   facilitates a heightened focus on patient and family centered concerns and aims to promote better
                   access to care.

                   The OIG recommendations and CMS responses to those recommendations are provided below.

                   OIG Recommendation

                   The OIG recommends that CMS define "grievances" for facilities.

                   CMS Response

                   The CMS concurs with the recommendation. CMS was already in the process of implementing a
                   standard definition prior to this review. The ESRD Network is responsible for using
                   standardized procedures to collect data and address grievances to promote consistency. The
                   Networks now adhere to the definition of grievances and the grievance resolution processes
                   described in the revised Chapter 9, "Grievances and Patient-Appropriate Access to Care," of the




The ESRD Beneficiary Grievance Process (OEI-01-11-00550)                                                                               21
The ESRD Beneficiary Grievance Process (OEI-01-11-00550)   22
The ESRD Beneficiary Grievance Process (OEI-01-11-00550)   23
The ESRD Beneficiary Grievance Process (OEI-01-11-00550)   24
                  ACKNOWLEDGMENTS
                  This report was prepared under the direction of Joyce M. Greenleaf,
                  Regional Inspector General for Evaluation and Inspections in the Boston
                  regional office; Russell Hereford, Deputy Regional Inspector General; and
                  Kenneth Price, Deputy Regional Inspector General.
                  Ivan Troy served as team leader for this study. Other Office of Evaluation
                  and Inspections staff from the Boston regional office who conducted the
                  study include Elizabeth Havener and Kimberly Yates. Central office staff
                  who provided support include Althea Hosein, Kevin Farber, Meghan
                  Kearns, and Christine Moritz.




The ESRD Beneficiary Grievance Process (OEI-01-11-00550)                                   25
                Office of Inspector General
                                 http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying
out their respective responsibilities and are intended to provide independent assessments of
HHS programs and operations. These assessments help reduce waste, abuse, and
mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on significant
issues. These evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness of departmental programs. To promote impact, OEI
reports also present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations
of fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources
by actively coordinating with the Department of Justice and other Federal, State, and local
law enforcement authorities. The investigative efforts of OI often lead to criminal
convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support for OIG’s internal operations. OCIG represents OIG in all civil and
administrative fraud and abuse cases involving HHS programs, including False Claims Act,
program exclusion, and civil monetary penalty cases. In connection with these cases, OCIG
also negotiates and monitors corporate integrity agreements. OCIG renders advisory
opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG
enforcement authorities.
